<html>
<title> - THE COLORADO RIVER DROUGHT CONTINGENCY PLAN</title>
<body><pre>[Senate Hearing 116-291]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 116-291

                      THE COLORADO RIVER DROUGHT 
                            CONTINGENCY PLAN

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON 
                            WATER AND POWER

                                 OF THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 27, 2019

                               __________
                               
                               
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                               


                       Printed for the use of the
               Committee on Energy and Natural Resources

        Available via the World Wide Web: http://www.govinfo.gov
        
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-260                       WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------
       
        
        
        
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               JOE MANCHIN III, West Virginia
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       MARIA CANTWELL, Washington
STEVE DAINES, Montana                BERNARD SANDERS, Vermont
BILL CASSIDY, Louisiana              DEBBIE STABENOW, Michigan
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
CINDY HYDE-SMITH, Mississippi        MAZIE K. HIRONO, Hawaii
MARTHA McSALLY, Arizona              ANGUS S. KING, JR., Maine
LAMAR ALEXANDER, Tennessee           CATHERINE CORTEZ MASTO, Nevada
JOHN HOEVEN, North Dakota

                                 ------                                

                    Subcommittee on Water and Power

                        MARTHA McSALLY, Chairman

JOHN BARRASSO                        CATHERINE CORTEZ MASTO
JAMES E. RISCH                       RON WYDEN
BILL CASSIDY                         MARIA CANTWELL
CORY GARDNER                         BERNARD SANDERS
LAMAR ALEXANDER

                      Brian Hughes, Staff Director
                     Kellie Donnelly, Chief Counsel
             Lane Dickson, Senior Professional Staff Member
                Sarah Venuto, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
          Rebecca Bonner, Democratic Professional Staff Member
                           
                           
                           C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
McSally, Hon. Martha, Subcommittee Chairman and a U.S. Senator 
  from Arizona...................................................     1
Cortez Masto, Hon. Catherine, Subcommittee Ranking Member and a 
  U.S. Senator from Nevada.......................................    53

                               WITNESSES

Burman, Hon. Brenda, Commissioner, Bureau of Reclamation, U.S. 
  Department of the Interior.....................................    54
Buschatzke, Thomas, Director, Arizona Department of Water 
  Resources......................................................    68
Entsminger, John J., General Manager, Southern Nevada Water 
  Authority, and Governor's Representative, State of Nevada......    77
Tyrrell, Patrick, Wyoming State Engineer.........................    93

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

American Rivers, et al.:
    Letter for the Record dated 3/14/2019........................     3
    Statement for the Record dated 3/25/2019.....................     4
Arboleda, Hon. Alexandra M.:
    Statement for the Record.....................................   118
Arizona Chamber of Commerce and Industry, et al.:
    Letter for the Record........................................     9
Arizona Farm Bureau:
    Statement for the Record.....................................    14
Association of California Water Agencies:
    Letter for the Record........................................    15
Aurora (Colorado) Water Department:
    Letter for the Record........................................   120
Burman, Hon. Brenda:
    Opening Statement............................................    54
    Map of Colorado River System.................................    56
    Chart titled ``Lake Powell and Lake Mead Combined Storage''..   58,
                                                                    106
    Chart with Photos of ``Lake Mead near Hoover Dam in 2000'' 
      and ``Lake Mead near Hoover Dam in 2016''..................    59
    Written Testimony............................................    61
    Responses to Questions for the Record........................   117
Buschatzke, Thomas:
    Opening Statement............................................    68
    Written Testimony............................................    70
Business for Water Stewardship:
    Letter for the Record........................................    16
California Natural Resources Agency:
    Letter for the Record........................................    18
Central Arizona Water Conservation District:
    Statement for the Record.....................................    20
Coachella Valley Water District:
    Letter for the Record........................................    23
Colorado River Indian Tribes:
    Statement for the Record.....................................    25
Cortez Masto, Hon. Catherine:
    Opening Statement............................................    53
Entsminger, John J.:
    Opening Statement............................................    77
    Written Testimony............................................    79
Gallego, Hon. Kate:
    Letter for the Record........................................    27
Gila River Indian Community:
    Letter for the Record........................................    29
Imperial Irrigation District:
    Letter for the Record........................................   122
Lee, Hon. Mike:
    Statement for the Record.....................................   135
McSally, Hon. Martha:
    Opening Statement............................................     1
(The) Metropolitan Water District of Southern California:
    Letter for the Record........................................    34
National Association of Water Companies:
    Letter for the Record........................................   136
National Water Resources Association:
    Letter for the Record........................................    36
Northern Colorado Water Conservancy District:
    Letter for the Record........................................    38
Salt River Project:
    Letter for the Record........................................    40
San Diego County (California) Water Authority:
    Statement for the Record.....................................    41
Sinema, Hon. Kyrsten:
    Statement for the Record.....................................   114
Torres Martinez Desert Cahuilla:
    Statement for the Record.....................................   138
Tyrrell, Patrick:
    Opening Statement............................................    93
    Written Testimony............................................    95
Upper Colorado River Commission:
    Letter for the Record........................................    43
Western Area Power Administration:
    Statement for the Record.....................................   142
(The) Western Coalition of Arid States:
    Letter for the Record........................................    45
Western States Water Council:
    Letter for the Record........................................    47
Western Urban Water Coalition:
    Letter for the Record........................................    49

 
              THE COLORADO RIVER DROUGHT CONTINGENCY PLAN

                              ----------                              


                       WEDNESDAY, MARCH 27, 2019

                               U.S. Senate,
                   Subcommittee on Water and Power,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:31 p.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. Martha 
McSally, presiding.

           OPENING STATEMENT OF HON. MARTHA MCSALLY, 
                   U.S. SENATOR FROM ARIZONA

    Senator McSally [presiding]. The hearing of the Senate 
Committee on Energy and Natural Resources' Subcommittee on 
Water and Power will come to order.
    The purpose of today's hearing, which is our first hearing 
together, is to discuss the Colorado River Drought Contingency 
Plan, otherwise known as the DCP.
    The Colorado River is a lifeblood of the Southwestern 
United States. The 1,450-mile-long river provides drinking 
water to 40 million Americans, irrigation for 5.5 million acres 
of farmland and more than 4,000 megawatts of carbon-free 
hydropower to communities across the West.
    The DCP represents a landmark grassroots collaboration that 
will allow the Basin states and tribes to prepare for a water 
scarce future without the Federal Government imposing a one-
size-fits-all solution. This is a truly historic agreement 
which everyone involved should celebrate.
    I am especially proud of the work done in Arizona. It was 
tough but through inclusive, good faith negotiations, cities, 
farmers, tribes, conservation groups, everybody came together 
and they found solutions to get it done.
    I want to congratulate Governor Doug Ducey, the State 
Legislature and all of the stakeholders. Tom, you guys did a 
fantastic job. They are really too numerous to list on this 
outstanding achievement that is going to improve Arizona's 
water security for years to come.
    Work on the DCP has been underway for nearly six years. It 
has spanned the terms of 2 Presidents, 3 Interior Secretaries 
and 13 Governors. The fact that this effort has seamlessly 
transitioned between Republican and Democratic Administrations, 
both here in DC and out in the states, speaks to the importance 
and the broad support of these agreements. Now that the states 
have completed their work, it is time for Congress to take it 
across the finish line. I know many of us in the Basin have 
been tracking this closely for the past several years and are 
ready to take action.
    I am happy to report that a bipartisan agreement on 
legislation has been reached, and I plan with my wing woman 
here----
    [Laughter.]
    ----to be introducing this bill with my colleagues on the 
Colorado River Basin very soon. And that is a hint, I mean very 
soon, like as soon as possible. We want to drop this 
legislation and get it across the finish line and signed into 
law.
    While the agreements themselves are complex and some are 
attempting to complicate matters with unrelated issues, the 
proposed legislation is actually simple, one of the shortest 
pieces of legislation I think I have seen. It allows the DCP to 
be signed by the Secretary and lets the states and Mexico get 
to work saving water.
    We must act quickly or we will see Lake Mead decline for 
another year, even in the wet year that we have had.
    With so much at stake it is not surprising the legislation 
has broad support from water and power users, tribes and 
conservation groups throughout the Basin.
    And without objection, I would like to place the now 21 
letters and statements of support for the DCP in the official 
record--including letters from Mayor Gallego of Phoenix, 
Arizona Farm Bureau, Central Arizona Project (CAP), Colorado 
River Indian Tribes, Gila River Indian Community, Salt River 
Project and 15 Arizona business groups.
    [Letters of support for the Colorado River Drought 
Contingency Plan follow:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Senator McSally. I hope we can stick together as a Basin to 
get this legislation enacted very soon so water savings can be 
locked in for 2020.
    I understand there will be more work to be done after we 
have authorized the DCP, but we can't let those next steps slow 
down this critical legislation.
    Today's hearing is the next step in this historic 
agreement, and I look forward to hearing from our witnesses.
    With that, I now turn to our Ranking Member, Senator Cortez 
Masto.

           STATEMENT OF HON. CATHERINE CORTEZ MASTO, 
                    U.S. SENATOR FROM NEVADA

    Senator Cortez Masto. Thank you, Chairman McSally. It is a 
pleasure to be here for our first Water and Power Subcommittee 
hearing this Congress. And let me just say, I am looking 
forward to working with you and thank you so much.
    As we know, there are many water issues facing the western 
states in the West, and it starts with us working together and 
it is wonderful.
    We are here today to discuss the Colorado River Drought 
Contingency Plan. This is an important issue for both our 
states. Collaborative, consensus-based efforts to find 
solutions in difficult circumstances is what the Basin is all 
about. I look forward to working with everyone to advance 
legislation authorizing the plan's implementation.
    I am especially pleased to have John Entsminger here from 
the Southern Nevada Water Authority. John, it is great to see 
you. He has been instrumental in finding a path forward for the 
drought contingency plan, and he continues to work tirelessly 
to secure a strong water future for Nevada and the West.
    I also want to welcome Commissioner Burman. In the short 
time that you have been there, it has been great to work with 
you as well, as well as all the other witnesses here. Thank you 
for all of your hard work. I look forward to the conversation 
that we will have today.
    The Colorado River Basin, as we all know, is critical to 
the nation. The Basin supplies, as you have heard, water to 
more than one in ten Americans and irrigates 5.5 million acres 
of farmland. It supports 4,200 megawatts of hydropower and 
provides habitat to a wide range of species. The Basin is also 
home to over 22 federally-recognized tribes.
    In particular, the Colorado River is the lifeline for 
Southern Nevada. The Las Vegas valley draws 90 percent, 90 
percent, of its water supply from the Colorado River by way of 
Lake Mead, which has seen its surface drop by more than 130 
feet over the past 16 years. The water from this river supports 
Southern Nevada's 2 million residents and the 42 million annual 
visitors who come to Las Vegas and the surrounding area to 
partake in our world class entertainment and gaming industry, 
as well as our increasingly popular outdoor recreation economy. 
Needless to say, the conservation and preservation of this 
water resource is crucial to the future of my home state.
    For the last 18 years the Colorado River Basin has been in 
prolonged drought. Last year the Bureau of Reclamation 
estimated there was a 57 percent chance that Lake Mead would be 
in shortage in 2020, the first declared shortage in the history 
of the Colorado River Basin. While this water year is 
promising, the risk of shortage in the Basin is always 
imminent.
    The seven Basin States have come together to find a path 
forward in managing the river understanding the risks of 
shortage in the Basin. The plans they have developed are the 
result of years of good faith negotiation and partnership 
beginning as far back as the Obama Administration continuing 
through today. This is an agreement that considers all elements 
within the watershed whether they be agricultural, tribes, the 
environment or the 40 million people who call the Basin home.
    It is often noted that water managers are in the business 
of the future. The Drought Contingency Plan does simply that. 
It looks forward and prepares for what might come.
    I want to thank you, and I look forward to the testimony 
today.
    Senator McSally. Okay, thank you. I really appreciate it.
    We are now going to turn to our witnesses. We really have a 
great panel today, all of whom have put many, many, many long 
hours into getting the DCP where it is today.
    First, we have the Honorable Brenda Burman, the 
Commissioner of the Bureau of Reclamation. Next, I am very 
pleased to have Tom Buschatzke, the Director of Arizona 
Department of Water Resources, who has been a leader in Arizona 
water throughout this process. Thank you for all the work you 
did to get this across the finish line. He was literally 
twisting arms, can you see?
    [Laughter.]
    You should see the other guys.
    [Laughter.]
    After that we have John Entsminger, General Manager of 
Southern Nevada Water Authority. And lastly, Pat Tyrrell, 
Wyoming State Engineer who will represent the Upper Basin.
    Thank you all for being here. I ask you please limit your 
testimony to five minutes. Your full remarks will be submitted 
for the record.
    With that, the Subcommittee recognizes Commissioner Burman.

   STATEMENT OF HON. BRENDA BURMAN, COMMISSIONER, BUREAU OF 
          RECLAMATION, U.S. DEPARTMENT OF THE INTERIOR

    Ms. Burman. Good afternoon, Chair McSally, Ranking Member 
Cortez Masto. I'm Brenda Burman, Commissioner of the Bureau of 
Reclamation.
    Thank you for the opportunity to testify today on the 
efforts on the Colorado River Basin on Drought Contingency 
Plans. We appreciate that the Subcommittee called this 
oversight hearing as promptly as possible.
    Just to paint the picture--as the handout you've been 
provided shows, the Colorado River irrigates nearly 5.5 million 
acres of farmland. It serves approximately 40 million people in 
major metropolitan areas across nine states in the United 
States and Mexico, including Denver, Salt Lake City, Las Vegas, 
Phoenix, Tucson, Los Angeles, San Diego, Mexicali and Tijuana. 
It is a most vital resource to the environment and the economy 
of the southwest.
    [The information referred to follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Burman. Understanding its importance, the Colorado 
River Basin is in danger. We are currently experiencing its 
worst drought in recorded history. The period from 2000 through 
2018 is the driest 19-year period in over 100 years. And this 
period represents one of the driest periods in the 1,200-year 
paleo record.
    These dry periods have caused the combined storage of Lake 
Powell and Lake Mead to drop precipitously. The combined 
storage in these two massive reservoirs stands at approximately 
40 percent of capacity.
    [The information referred to follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Conservation and storage programs developed in the last few 
years have added approximately 25 feet in elevation to Lake 
Mead, keeping us just out of shortage. But these conservation 
efforts have helped the Lower Basin avoid shortage in the past 
few years. These efforts will also be instrumental in helping 
to avert a shortage condition through 2019.
    While shortages are likely part of the Lower Basin's 
future, none of the Lower Basin states, or Mexico for that 
matter, can afford to allow a true crisis of water supply to 
develop. Simply put, if Lake Mead were to decline to elevations 
below 1,020 feet mean sea level, the remaining live storage 
would be less than six million acre-feet. And to put that in 
context, in a normal year Reclamation delivers nine million 
acre-feet, and this would leave us without even a full year 
supply. That is not a future we want this Basin to experience.
    Reclamation data from January indicates the critical 
elevations could be reached as early as 2021. The risk of our 
primary reservoirs, Lake Powell and Lake Mead, reaching 
critically low elevations has increased nearly fourfold over 
the past decade and could continue to increase without action.
    The seven Colorado River Basin States deserve great credit. 
Over the past 25 years we've seen that by working together we 
are able to accomplish far more than any one party, any one 
state or even any one country could do on its own. Together the 
Upper and Lower Basins, all seven states, are committed to 
taking actions to reduce risk on the system and we applaud 
their efforts and their successful negotiation of a set of 
agreements that will reduce risk on the Colorado for all that 
rely on the river.
    Whether you rely on the Colorado River for your city's 
water supply, irrigate with water from the Colorado, use 
electricity generated by the Colorado or enjoy the natural 
wonders of the Colorado River, everyone benefits when we work 
together to protect this limited, declining and irreplaceable 
resource.
    Thank you again for calling this hearing. I look forward to 
your questions and to the testimony of the Basin State leaders 
that are here with us today.
    [The prepared statement of Ms. Burman follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator McSally. Great. Thank you, Commissioner Burman.
    Mr. Buschatzke.

STATEMENT OF THOMAS BUSCHATZKE, DIRECTOR, ARIZONA DEPARTMENT OF 
                        WATER RESOURCES

    Mr. Buschatzke. Good afternoon, Chairman McSally, Ranking 
Member Cortez Masto and members of the Subcommittee. I am Tom 
Buschatzke, the Director of the Arizona Department of Water 
Resources.
    Thank you for providing me an opportunity to present 
testimony on behalf of the State of Arizona on the Lower Basin 
Drought Contingency Plan, or the DCP. It is a plan negotiated 
by representatives of the states of Arizona, California and 
Nevada, water agencies within those states and the United 
States Bureau of Reclamation to address the ongoing drought in 
the Lower Colorado River Basin that began nearly two decades 
ago and that has no end in sight.
    DCP also has, also accounts for the drier future we all 
expect will be the norm for the river in the coming decades. 
The drought and that drier future could lead to Lake Mead 
falling to critical elevations resulting in draconian 
reductions in water deliveries throughout the Lower Basin. The 
DCP is an urgent measure that could help avert such a crisis, 
and the time to act is now.
    The DCP and the drought contingency plan crafted by the 
Upper Basin states are the latest examples of the states 
working together with the Bureau of Reclamation to achieve 
agreed-upon solutions to issues facing the states regarding the 
Colorado River. The Republic of Mexico has also agreed to a 
binational water scarcity plan for their Colorado River water 
that provides additional benefit to the action of the seven 
Basin States.
    We have developed a sound plan for protecting the water 
supply in both lakes in the face of historic drought 
conditions, and we have done so in a manner that continues to 
protect and respect the water rights of those that rely on the 
Colorado River.
    The DCP is innovative and strikes a careful balance between 
flexibility and certainty that results in a more sustainable 
Lake Mead. The DCP is an overlay to the existing operational 
criteria set out in the 2007 interim guidelines that include 
water shortages in the Lower Basin to protect critical Lake 
Mead elevations. The DCP recognizes that the 2007 guidelines 
are covered by existing environmental compliance under both 
NEPA and the Endangered Species Act. The DCP was expressly 
designed to fall within the parameters of that existing 
environmental compliance. The DCP benefits accrue as a result 
of less water being delivered from Lake Mead.
    DCP will have consequences for water users in Arizona. 
Nevertheless, stakeholders in Arizona, that include tribes, 
cities, towns, counties, irrigation districts, agriculture, 
NGOs and members of our legislature, came together to create an 
Arizona implementation plan to engender support for the DCP.
    Water users in Arizona, recognizing the urgent need to 
address Colorado River issues, agreed to make sacrifices. Their 
support enabled legislative action on January 31, 2019, with 
nearly unanimous approval by the State Legislature, authorizing 
me to sign the DCP documents and to bind the State of Arizona. 
Governor Doug Ducey signed that legislation the same day and in 
the same room that the landmark 1980 Groundwater Management Act 
was actually signed, symbolizing the importance of the Drought 
Contingency Plan to the State of Arizona.
    It is important to understand that the Drought Contingency 
Plan is an initiate of the seven Basin States. I recognize that 
the participation of the Bureau of Reclamation over the last 
four years was the key to the success of this endeavor, and I 
thank them.
    Over the last two decades innovative management on the 
Colorado River has been dependent upon cooperation between the 
states and upon partnerships with the Federal Government, even 
as Presidential administrations have changed. The DCP continues 
that paradigm.
    In conclusion, I urge the adoption of the bipartisan, 
federal legislation necessary to implement the Drought 
Contingency Plans and I thank you for the opportunity to 
testify, and I'm happy to answer questions.
    [The prepared statement of Mr. Buschatzke follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator McSally. Thank you, Mr. Buschatzke.
    Mr. Entsminger,

  STATEMENT OF JOHN J. ENTSMINGER, GENERAL MANAGER, SOUTHERN 
NEVADA WATER AUTHORITY, AND GOVERNOR'S REPRESENTATIVE, STATE OF 
                             NEVADA

    Mr. Entsminger. Chairwoman McSally, Ranking Member Cortez 
Masto, my name is John Entsminger and I'm the General Manager 
of the Southern Nevada Water Authority and Governor Sisolak's 
representative for the State of Nevada.
    Thank you for the opportunity to testify today on the 
Colorado River Drought Contingency Plans, also known as the 
DCP.
    Rather than summarizing my written statement submitted for 
the record, I'm going to depart from my prepared remarks and 
address two issues raised by the Imperial Irrigation District 
(IID) that may be on your minds. One, that IID was cut out of 
the DCP, and two, that less agricultural runoff will reach the 
Salton Sea as a result of DCP.
    IID was not in any way cut out of the DCP. From very early 
on in the process that has now spanned a period of 
approximately six years, IID principals, lawyers, staff and 
sometimes directors, actively engaged in the development of the 
DCPs. While IID professed support of the DCP throughout the 
process, IID's board never acted on or even put on an agenda 
the interstate agreements and operational rules that comprise 
the DCP. Rather, on December 10th, 2018, IID approved certain 
agreements internal to California's DCP obligations but only on 
the condition that, among others, ``That the State of 
California and the United States have irrevocably committed to 
provide sufficient funding for the full completion of the ten-
year Salton Sea Management Program at a one-to-one federal 
state funding commitment.'' Because IID unilaterally demanded 
condition precedent, an earmark amounting to approximately $400 
million in federal and state funds has not yet been met, IID 
has taken no action on the interstate DCP package before you 
and thus prevented its own participation.
    While each of the parties of the DCP would have preferred 
that IID participate from the outset as a signatory, the 
parties have built an onramp for IID to participate fully in 
the event its position changes. Until it does so, however, 
IID's exclusion is self-imposed.
    The DCP will not result in less water reaching the Salton 
Sea and consequently, the assertion that the DCP will 
exacerbate the very real public health concerns affecting the 
Sea and its surrounding communities, is erroneous. IID, having 
removed itself from the plan by conditioning its participation 
on a requirement that has failed, will not be required to make 
contributions to Lake Mead under the DCP. Accordingly, the DCP 
package forwarded to Congress by the seven Basin States will 
neither impact the amount of water reaching the Sea nor the 
Sea's environment. Furthermore, if at any time IID elects to 
participate based upon previously approved interstate 
agreements, IID's 250,000-acre-foot contribution will be 
comprised of water already conserved in Lake Mead or with the 
Metropolitan Water District. Accordingly, the real connection 
between DCP and the Salton Sea exists only in IID's demand for 
money.
    Nevada has responded to the drought with an aggressive 
conservation campaign, large-scale infrastructure improvements 
and contributions to Basin-wide initiatives designed to help 
mitigate the impacts of drought. We have invested more than 
$250 million in conservation programs that have reduced our 
consumptive use of Colorado River water by 26 percent during 
the same time period our population increased by 43 percent. We 
have spent nearly $1.5 billion on new facilities designed to 
protect our communities' access to our Colorado River supplies 
without any funding from the Federal Government. With a paltry 
1.8 percent allocation of the river's flow, Nevada can't solve 
the problems facing an overallocated and drought-stricken 
Colorado River alone.
    Fortunately, we're not alone. We have worked with our 
partners along the river to construct new facilities and 
implement new agreements and regional conservation programs to 
bolster Lake Mead water levels. Collectively our actions have 
conserved enough water to increase Lake Mead levels by 30 feet, 
effectively delaying the onset of shortages in the Lower Basin.
    The seven states have chosen to take the actions that 
comprise DCP voluntarily because not one of us can bear the 
burden alone. It is our responsibility to nurture this river 
that sustains our communities. The future of the American 
southwest is dependent upon it.
    Thank you very much, and I will look forward to answering 
any questions.
    [The prepared statement of Mr. Entsminger follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator McSally. Thank you.
    Mr. Tyrrell.

                 STATEMENT OF PATRICK TYRRELL, 
                     WYOMING STATE ENGINEER

    Mr. Tyrrell. Thank you, Chairman McSally, Ranking Member 
Cortez Masto and members of the Subcommittee. My name is Pat 
Tyrrell. I am the Wyoming State Engineer and the Wyoming 
Governor's representative to the Colorado River.
    I wish to express Wyoming's and the Upper Basin's support 
for the DCPs you've heard about, developed in a consensus 
manner by seven Basin States over roughly the last six years.
    The Colorado River Basin has been experiencing severe 
drought since 2000, longer and more severe than was considered 
during the development of the 2007 interim guidelines. We now 
know that those operating rules cannot sufficiently address one 
of the worst drought cycles ever seen.
    The seven Colorado River Basin States, working with the 
Department of Interior, have carefully developed a plan which 
is a complex compromise that helps protect critical reservoir 
elevations in both Lakes Powell and Lake Mead, thereby 
benefiting the entire river Basin.
    Implementation cannot begin until the agreements have been 
executed by all parties which is predicated upon securing 
legislative authorization.
    The DCPs will provide an opportunity, a bridge, for the 
Basin States, Federal Government and other key stakeholders to 
collaborate on a longer-term set of sustainable solutions for 
managing the river until 2026 when the '07 guidelines are 
renegotiated. The DCPs are the only plans that will reduce the 
probability that both reservoirs will decline to critically low 
elevations which could occur as early as 2021.
    We see two ways to respond to the severe drought in the 
short-term. One is to watch it happen and risk lateral 
secretarial action in the Lower Basin and dispassionate 
mandatory regulation of uses in the Upper Basin. The other way 
is to authorize the DCPs which expand concepts outlined in the 
2007 interim guidelines, lay lighter upon our water users and 
are a product of collaboration and consensus. In either case, 
if drought continues, some water uses will be reduced.
    As a water manager, I'm compelled to offer my water users 
the second alternative, a drought plan developed with water 
users and contractors and which avoids heavy government 
intervention and mandatory curtailment is what DCP represents.
    The Upper Basin cannot fail to satisfy the 1922 compacts, 
75 million acre-feet and ten years' obligation at Lee Ferry 
below Lake Powell. Additionally, we have never had to implement 
the difficult curtailment provisions of the 1948 Upper Colorado 
River Basin Compact in the face of a looming violation. But we 
know it will be difficult. The risk of under- or over-
regulating is significant.
    The Upper Basin DCP helps sustain critical elevations at 
Lake Powell in compliance with the '22 Compact while avoiding 
or reducing mandatory curtailment of Upper Basin water uses.
    The first tool in the Upper Basin plan is the Drought 
Response Operations Agreement which establishes a process where 
we can move water already stored in Lake Powell to protect 
critical elevations, to Lake Powell, excuse me. If it reaches 
those critical elevations the hydraulic ability to release 
water is jeopardized. If we cannot get water past that dam, we 
violate the compact.
    Additionally, if that power pool elevation is breached, we 
lose the ability to generate hydropower and funding for 
operations, critical environmental programs related to 
endangered fish and salinity and power resources for customers 
and the grid are risked.
    Even without the agreement the Bureau will seek to move 
uncommitted storage from its upstream initial unit reservoirs 
to prevent that from happening. If drought operations are ever 
needed, the agreement provides a process of outreach to our 
stakeholders to influence how that movement of water will occur 
and requires its subsequent recovery of water levels in those 
reservoirs. We have committed that those activities will occur 
under existing NEPA analysis, records of decisions and other 
authorities already in place.
    Our second tool is a demand management storage agreement. 
Demand management cannot generate, we've learned, enough water 
in one year to mitigate a compact curtailment event if one is 
required.
    So the storage space authorized through the agreement is 
critical to its success. If the Upper Division States conclude 
after study that a demand management program is feasible, and 
we can incentivize the program to ensure participation, the 
temporary voluntary reduction of existing consumptive use in 
the Basin would provide water to be released when needed to 
help assure compliance with the '22 Compact.
    The Colorado River Basin needs the DCPs implemented now.
    Madam Chairman, I see I am out of time. And if you like, I 
will stop right there. I missed a little bit, but I'll quit 
right there.
    Senator McSally. Sorry, if you want to just summarize and 
wrap up, I will give you a few more seconds.
    Mr. Tyrrell. Thank you.
    The Colorado River Basin needs the DCPs implemented now. 
The plans were developed through years of collaboration, 
compromise and consensus and function within the rigorous 
environmental analysis review and permitting processes that 
have already been completed. The plans require the passage of 
federal legislation to become effective. We request your 
support in adopting that legislation as soon as possible.
    Thank you.
    [The prepared statement of Mr. Tyrrell follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator McSally. Great. Thank you, Mr. Tyrrell.
    We will now move to questions from the Subcommittee, and I 
will kick that off.
    Mr. Buschatzke, again, thank you for your leadership and 
all the hard work for the many stakeholders, some of which are 
represented here today, also in the audience. Both the 
interstate and Arizona-specific agreements are quite complex 
and require Arizona to conserve water in Lake Mead earlier than 
would otherwise be required.
    Can you explain in a bit more detail how this agreement 
helps protect Arizona from more severe impacts down the road 
and the importance of Arizona savings for the Colorado River 
system as a whole?
    Mr. Buschatzke. Chairman McSally, so there's multiple ways 
that Arizona is protected with the DCPs in place.
    So first, the DCP in the Lower Basin has a backstopping 
trigger provision in which, if we see a projection from the 
Bureau of Reclamation two years ahead of time that the lake is 
going below 1,030 in elevation, then the states have agreed to 
take additional collective actions to protect the lake from 
going below 1,020. This is the first time that the states have 
agreed to such a specific trigger to protect a specific 
elevation in Lake Mead. That will avoid the draconian, 
potential draconian reductions that might fall into the Lower 
Basin on Arizona.
    And again, the other big benefit in how Arizona is 
protected is that California, Nevada and Mexico are going to 
share in the risks and share in the benefits of the river and 
for, again, the first time we have a serious agreement in which 
collective, collaborative actions will be taken regardless of 
how the priority system works in the Lower Basin.
    Senator McSally. Great. Thank you.
    Can you also share what are the next steps in Arizona for 
the implementation of the plan?
    Mr. Buschatzke. So again, Chair McSally, we have about 15 
intra-Arizona agreements that are put in place to, kind of, 
share the pain among the water users, move water from higher 
priority to lower priority users, to help offset those negative 
impacts of DCP on those users.
    We also have money available to do some compensation for 
those who are also reduced from the incremental impacts of DCP 
as compared to the 2007 guidelines.
    And maybe more importantly, we have an opportunity in 2019 
to start conserving additional water in Lake Mead.
    The Gila River Indian Community, one of the several tribes 
who has come to the table with us to collaboratively work with 
us within our state, has offered to put water up in Lake Mead 
this year and to keep that water in Lake Mead as Intentionally 
Created Surplus through the end of the 2026 dependency of the 
DCP. So we can get a head start on protecting Lake Mead through 
that process. So we will be moving forward to complete the rest 
of the agreements and with the implementation of DCP to help 
facilitate with the Gila River Indian Community that 
Intentionally Created Surplus.
    And I do want to mention that within the State of Arizona 
the DCP allows for an increase of storage in Lake Mead for 
Intentionally Created Surplus, doubling our total accumulation 
capacity.
    We have chosen, through our collaborative process, to set 
up a paradigm inside our state where tribal entities and non-
tribal entities will split that capacity 50/50. That is a very 
big milestone within our state to allow greater participation 
by tribal entities.
    So there are many benefits and many protections that come 
out of the Drought Contingency Plan for Arizona.
    Senator McSally. Great. Thank you.
    One issue that has come up through the discussion on our 
legislative language in the last few days is one of legal 
certainty. It makes sense. And again, in Arizona, major 
investments are needed to implement these agreements for 
everyone, including tribes, to begin banking water in Lake 
Mead. But there need to be assurances that they are not going 
to be stranded there.
    So, Commissioner Burman, can you start? Can each of you 
touch on legal risk factors and how important it is in a 
successful implementation of these agreements?
    Ms. Burman. So, the Drought Contingency Plans have been 
developed to be implemented immediately. And to do that it's to 
provide certainty that there will be incentives, that we will 
buy down the risk so that there are incentives to put 
conservation of water behind Lake Mead.
    I think the states will be prepared to talk about the 
actual effects for them at home about having more certainty. 
But from the federal perspective, we have worked with the 
states to know we have a plan that works, to know that this is 
a seven-year emergency plan to address critical risk on the 
system. And to do that, to invest in the system, we believe 
that the parties need certainty.
    Senator McSally. Great. Thank you.
    I am out of time. I will get to the rest of you on my 
second round.
    I want to hand it over to Senator Cortez Masto.
    Senator Cortez Masto. Thank you, and thank you all again.
    First of all, let me just say and commend you for all of 
the good work on the collaboration that you have done. And I 
agree, this is monumental and it is legislation that we need to 
move and we need to move it quickly.
    Mr. Entsminger, let me ask you this. Is Southern Nevada 
prepared to deal with the additional reductions that are 
required under the DCP?
    Mr. Entsminger. Thank you for the question, Senator.
    Yes, we are prepared. Right now, under the 2007 guidelines 
Nevada would face a maximum reduction of 20,000 acre-feet. Our 
maximum contribution under the DCP is an additional 10,000 
acre-feet, so that would take us up to 10 percent of our total 
allocation that we would be leaving in Lake Mead at lower 
elevations to help protect the reservoir.
    However, as you're aware, we are very close to completing 
that $1.5 billion in new infrastructure that will allow us to 
pull water from Lake Mead even if the reservoir elevation was 
to get to dead pool.
    We have reduced our overall use by about a third since 2002 
through our conservation measures, and we currently have eight 
years of our total demands in banked reserve. So we're in a 
very strong position, not only to help the rest of the river 
but to protect ourselves as well.
    Senator Cortez Masto. Can you address why it is important 
to implement the DCP as soon as possible?
    Mr. Entsminger. I think that's a great question because 
we've already finished negotiating Minute 323 which is an 
addendum to the 1944 treaty between the United States and 
Mexico. And pursuant to Minute 323, if we get this done about 
by the end of April, that will kick in the water scarcity plan 
and we'll have the country of Mexico leaving water in Lake Mead 
during the next water year.
    It will also, if we finalize this before the August 24-
month study, Nevada and Arizona will be adding water into the 
Lake next year, and it also removes some disincentives.
    Right now under current law, people are incentivized 
actually to move water out of the reservoir right as we're on 
the brink of a shortage. And by tweaking, you know, the way 
we're allowed to deliver water we will actually now be 
incentivizing those people to leave the water in the lake.
    So, if you add all that up, you know, you're in the range 
of five to six feet of elevation in Lake Mead by acting 
immediately rather than waiting into next year.
    Senator Cortez Masto. And can you address, what is the 
worst-case scenario if the DCP is not implemented?
    Mr. Entsminger. Well certainly if you look at the Bureau's 
modeling when they start looking at individual traces where 
you're stacking a 2002, 2012, 2013 in a row, without the DCP in 
place by 2026 during the operation of DCP you could have a 
situation where Lake Mead does get to dead pool. And again, 
that's the elevation at which the Bureau of Reclamation cannot 
release water downstream to California, Arizona and the country 
of Mexico.
    Senator Cortez Masto. Thank you.
    Commissioner Burman, I know you have been, and we have had 
these conversations, you also have been supportive of coming to 
an agreement and moving forward with this, with the DCP. Are 
there any concerns that you have right now with the plan that 
has been presented before Congress?
    Ms. Burman. As I said in my testimony, I commend the states 
for pulling together and bringing two drought contingency plans 
that will address the risk on the system.
    In the last ten years we've seen the risk of reaching 
critical low elevations in Lake Mead and Lake Powell increase 
fourfold. What this plan does is it's a seven-year--I call it 
an insurance plan. It is buying down the risk on the system. It 
is putting measures in place that are going to keep Lake Mead 
and Lake Powell at above critical elevations if at all 
possible.
    So, I say this plan has been put together over many years. 
To bring seven states together is no easy feat. It shows the 
history of collaboration on the Colorado River. And so, we look 
forward to working with the states to implement it.
    Senator Cortez Masto. Thank you.
    Can you also, I have just a little bit of time left, but do 
you mind addressing what steps you have taken or plan to take 
to increase resilience in the Basin and ensure that communities 
and states have the resources they need to plan for a drier and 
more drought prone future?
    Ms. Burman. So, I would say it's an all-of-the-above 
approach.
    The Drought Contingency Plans which are in front of us 
today, I think John Entsminger said it well, ``Right now, we 
have disincentives on the river system.''
    If you are holding water in Lake Mead and you believe we 
will have a shortage, you want to take that water out because 
you won't have access to that water. The Drought Contingency 
Plans create new incentives. They create new incentives to 
conserve water in the system and new incentives to move water 
in the system. And that allows parties to know they have that 
certainty, to know they can save more water.
    In the Upper Basin it gives the certainty to know that 
Reclamation will be working with the states to protect power 
pool in Lake Powell, and that's what they've identified as a 
necessary action. So, working with the states, we've heard them 
about what they need in order to make this work and that's what 
we've been trying to do.
    Senator Cortez Masto. And thank you.
    I know the drought is really our norm, correct? It is not 
something that is unique. It's norm and that's why this is so 
important as we work together.
    Ms. Burman. After 19 years you start to think that's 
something----
    Senator Cortez Masto. Sure is. Thank you.
    I notice my time is up. Thank you.
    Senator McSally. Senator Gardner.
    Senator Gardner. Thank you, Madam Chair, and thank you to 
all of you for being here. I know this has been a lot of hard 
work. Blood, sweat and tears have gone into this effort. So 
thank you very much for coming together today for your time and 
testimony.
    If you look at the map the Commissioner shows, there is 
Yuma, Arizona, down here at one end and I live in Yuma, 
Colorado, that is almost at the very opposite end diagonally 
across at the end of the South Platte River, adjacent areas 
that receive Colorado River water.
    Now we are not on the South Platte but this is an 
incredibly important issue for those of us out in the Plains of 
Colorado, those of us in Western Colorado and throughout the 
Upper Basin, Colorado and the Lower Basin. Colorado has the 
unique distinction of being a state where all water flows out 
and no water flows in. So thank you for this timely meeting.
    Mr. Entsminger, I appreciate the testimony and history that 
you provided. It is important for those of us who are not 
steeped in the history of Colorado River history to understand 
what we are talking about in the Drought Contingency Plan and 
what it means. We have negotiated apportionments of the 
Colorado River over the wettest periods in our history.
    That is what your testimony talks about, the allocation of 
the river, 16.5 million acre-feet. Recent flows show 14.8 
million acre-feet averages. Building in this structural deficit 
of at least 1.7 million acre-feet that is causing more water to 
flow out of the system, the storage system, than is coming in. 
And that is before we even start talking about the impact that 
drought has on the system.
    This drought that started, as Senator Cortez Masto was 
talking about, all of you have talked about in the early 2000s 
caused us to come together resulting in the 2007 Interim 
Guidelines that you talked about, a tool that helped us 
navigate the shortage declaration. But that and other efforts 
of conservation have not sufficiently mitigated the risk at 
Lake Mead dropping below critical levels in the face of this 
prolonged drought.
    And so also here, here we are, talking about drought 
contingency plans that will build upon those 2007 guidelines. 
And while Colorado has received more snow, I was listening to 
the radio the other day, we were at 80 percent drought. We have 
had amazing snow. We are at 50 percent drought, and we still 
have portions of the state that are in extreme drought 
conditions even with the blessings of the water that we have 
received this year.
    Commissioner Burman, as you are well aware, in the West 
when you touch water, you touch everything. How important is it 
that we come together on this program for the Colorado River 
system to keep it stable, to prevent a crisis for 40 million 
people who depend on it?
    Ms. Burman. I've seen some reports out there that say it's 
a wet year, do we really need to do this? And we didn't get 
into this drought in one year, and we're not going to get out 
of this drought in one year.
    I attached a map on page 2 of your handout.
    [The information referred to follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Burman. And this is the combined storage of Lake Powell 
and Lake Mead. And if you can see there's a red arrow to point 
it out.
    When we started this drought, we were almost full. Lake 
Powell and Lake Mead were almost full, and we had four years of 
bad hydrology. So that's just 48 months and we lost half of the 
system. Half of our storage across the entire Basin.
    And since then, through partnerships, through 
incentivizing, more conservation, we've been able to keep 
ourselves out of shortage, but just barely. But if we were to 
experience 2003-2004 again, we would be in a very devastating 
place. So the risk on the system is too great not to act.
    Senator Gardner. It is. Thank you.
    Mr. Tyrrell, in your testimony you talked about the 
implications for the Upper Basin states if the various drought 
contingency plans are not executed. First and foremost is 
compact compliance with the Lower Basin. Can you explain why 
that compact compliance is critically important?
    Mr. Tyrrell. Thank you.
    Chairman McSally, Senator Gardner, yes. Compact compliance 
is what keeps us from being curtailed. We know that under the 
'22 Compact there's a non-depletion requirement at Lee Ferry. 
And if we endanger or jeopardize that number, the Upper Basin 
states must curtail their use. In other words, we actually need 
to curtail ahead of time so that that number is not met. If we 
look like we're going to fall below 7.5 per year or 75 in ten, 
we must curtail in advance. That is the risk to the Upper 
Basin.
    We do not want to have a compact compliance violation 
staring us in the face. The advantage of our demand management 
and drought operations agreements is that they can blunt that 
from happening whether we move water down from the upper 
initial units or whether we can intentionally conserve water, 
store it and release it.
    Senator Gardner. May I jump in here, real quick? I am 
running out of time.
    I know Colorado, in Colorado, one of the big hurdles our 
water users had to clear was the creation of a downstream water 
bank, so to speak, where we would be able to store conserved 
water. There were concerns that the creation of this storage 
capacity would make a demand management program almost a 
certainty.
    It is my understanding that the creation of the storage 
account does not automatically create a demand management 
program. Is that correct?
    Mr. Tyrrell. Yes, sir. That is correct.
    Senator Gardner. And could you quickly walk through some of 
the issues that would have to be considered prior to the 
creation of any Upper Basin demand management program?
    Mr. Tyrrell. Chairman McSally, Senator Gardner, first of 
all we need the authorization for storage, to store the water. 
Once we get that, the program itself is going to go back to our 
stakeholders. We've got to deal with issues on how that water 
is conserved. How do we quantify it? How do we shepherd it? And 
then we have to get verification that what we say we conserved, 
we actually have stored, ultimately in Lake Powell.
    A lot of that work needs to be done, a lot of science on 
the movement of that water. We've learned something in the 
system conservation program we've had running for four years, 
but we need to learn more.
    Senator Gardner. Well, thank you.
    These are states where history is written in water. So this 
is incredibly important.
    Thank you.
    Senator McSally. Thanks, Senator Gardner.
    Senator Barrasso.
    Senator Barrasso. Thank you very much, Madam Chairman.
    Before I begin the questions, I would like to really 
recognize my friend, Pat Tyrrell, for your incredible service 
to Wyoming. You are a native of Cheyenne, Wyoming. For the past 
18 years you have served as Wyoming State Engineer. You are an 
expert when it comes to western water and the law of the river. 
Wyoming sits at the headwaters of the Colorado River so when 
snowmelt flows into the Green River and travels south, you know 
exactly what is going on. So from irrigation, ranching, power 
production, recreation, the water is center to the way of life 
in Southwest Wyoming and you have been there.
    You know, in facing nearly two decades of drought, new 
management practices are needed to sustain these uses for 
future generations, so I am just so glad that you are here 
today to share your insights.
    That is why we have the Drought Contingency Plan before us. 
It provides the flexibility while preserving longstanding water 
rights. It is the product of years of negotiation. I know you 
have been there.
    Years of science. Years of compromise. You understand the 
importance of strong coordination and consensus among state, 
local and federal parties because you have had that leadership 
role when I was in the State Senate and now the time I'm in the 
U.S. Senate, pretty much a direct overlap of our time together.
    So we are so pleased to have you with us here today to 
testify on behalf of the water users in Wyoming and in the 
Upper Basin. I know many people in the room know Pat, have 
worked with him over the decades, have come to respect his 
knowledge of the subject matter.
    But you are testifying in the House tomorrow. I talked to 
Liz Cheney about that today. She said you are going to be in 
the House tomorrow, that this was, kind of, the warm-up act 
today.
    [Laughter.]
    And then on Friday you are going to be retiring from your 
job but hold the title of Wyoming's longest serving State 
Engineer.
    So I know you are going to continue on in a number of 
committees, continue to play an active role. I just want to 
specifically recognize you for the great work you have done for 
Wyoming, for water users throughout the West. And I just think 
I speak for many here in this room to just say, thank you for 
your service.
    Mr. Tyrrell. Thank you.
    Senator Barrasso. In the few seconds I have remaining----
    [Laughter.]
    You know, Pat, you mentioned in your testimony that you 
believe that the Drought Contingency Plan is going to serve to 
protect Wyoming water users from the risk of mandatory 
curtailment. Can you provide some details around that statement 
and maybe describe why Wyoming's water users should support the 
effort?
    Mr. Tyrrell. Certainly, thank you, Chairman McSally and 
Senator Barrasso.
    The risk of curtailment brings with it economic issues 
associated with people who can't use water to grow crops or 
from municipalities or industries in the Basin who might be 
junior to the 1922 Compact. That curtailment is a dispassionate 
mandatory turning off under our priority system of the uses of 
water.
    There are other risks as well. Among them are the funding 
that comes from Lake Powell that goes toward salinity control, 
and endangered fish recovery also allow Upper Basin states to 
develop more of their unused apportionment. Those programs are 
critical to our development. Losing them risks our water users.
    Senator Barrasso. Any other risk would be avoided by 
implementing this program?
    Mr. Tyrrell. Senator Barrasso, one of the risks we've 
always tried to avoid in this Basin, the reason we have seven 
states here today, is the risk of interstate litigation. We 
obviously want to avoid that because that's not a winning 
situation for this group. So I would certainly offer that as 
another risk avoidance.
    Senator Barrasso. Okay.
    And under the Upper Basin Drought Response Operations 
Agreement, some water may be moved out of the CRSP Initial 
Units, including Flaming Gorge and in order to support critical 
levels in Lake Powell. You know, Flaming Gorge provides 
significant recreation and economic benefits to Southwestern 
Wyoming. So can you explain why this is necessary and what 
plans are in place for Flaming Gorge or any of the initial 
units to recover if they move more water to Lake Powell?
    Mr. Tyrrell. Thank you for that question.
    By the way, I retire Monday, and not Friday, unless I do 
really poorly tomorrow.
    [Laughter.]
    Chairman McSally, Senator Barrasso, the Drought Response 
Operations to which you refer--first understand that Lake 
Powell is paramount in protecting that power pool and the 
ability to get water out--keeps all the lights on, all those 
programs running, protects the grid, et cetera. The Bureau will 
move water down that is uncommitted from other reservoirs to 
protect Lake Powell.
    What our agreement gets us is a seat at the table to 
influence how that occurs, involve our stakeholders, and it 
does not, if we ever have to enter drought operations, which we 
hope we don't, we hope it's a plan we create and never have to 
use, then it is not complete until those reservoirs are 
recovered. The states were successful in getting recovery into 
that plan.
    Senator Barrasso. So then, under the plan will Wyoming ever 
be required to send more water to the Lower Basin than 
currently required?
    Mr. Tyrrell. No, Mr. Senator. All it does is allow us to 
continue to comply with the '07 guidelines and the existing law 
of the river makes them more sustainable.
    Senator Barrasso. Well again, I just want to thank you for 
the work you have done. I appreciate the good work you have 
done for Wyoming, serving as our State Engineer. Thanks so very 
much.
    Thank you, Madam Chairman.
    Senator McSally. Thank you, Senator Barrasso.
    We will now go for a second round of questions.
    Commissioner Burman, there are a number of federal and non-
federal investments included in the Arizona implementation plan 
to mitigate for reduced water deliveries. This is especially 
important for the Pinal County agricultural community, as you 
know, so they have time to prepare for this new water regime.
    Are you starting to look at potential funding sources to 
implement this mitigation, and will you commit to working with 
me on this as the DCP is implemented?
    Ms. Burman. Senator, Madam Chair, we absolutely commit to 
working with the Senate and with the state and with local 
parties in moving forward to implement the DCP.
    Senator McSally. Great.
    Anything in particular you can give us insight on related 
to the Pinal County question?
    Ms. Burman. I would say that the first step the Federal 
Government is looking at has been with the Gila River Indian 
Community and accelerating some of our work with the Gila River 
as far as firming commitments, providing ability to put water 
in Lake Mead which helps protect Pinal County and others in 
that area.
    Senator McSally. Okay, great.
    Also, you know, in addition to the critical water security 
benefits of the DCP which have been talked about, protecting 
hydropower generation is an important aspect of these 
agreements. This has been touched on a little bit already.
    But Commissioner Burman, can you discuss how the DCP 
affects hydropower generation at Glen Canyon and Hoover Dams 
and how Reclamation is working with hydropower stakeholders in 
this process?
    Ms. Burman. Absolutely.
    We are completing analysis that will look at the full range 
of effects to hydropower of the Drought Contingency Plans. 
We're doing that with Western Area Power Authority and with 
hydropower stakeholders.
    But I can say, for example, that at full capacity Hoover 
Dam's turbines are able to generate over 2,000 megawatts of 
power. But currently, given all the lower elevations in Lake 
Mead, they're only able to generate about 1,500 megawatts. So 
that's a 25 percent reduction in the ability to generate power 
at Hoover Dam. We lose about 5.7 megawatts of capacity for 
every foot in Lake Mead that it drops. So I would say it's very 
important for hydropower to shore up elevations in both Lake 
Mead and Lake Powell. If we were to drop down past power pool, 
there would be zero hydropower generated. And this plan is 
designed to protect Lake Powell and Lake Mead and the 
hydropower that they generate.
    Senator McSally. Great. Thank you.
    Mr. Buschatzke, the flow of water in the Arizona 
Implementation Plan is very complex, as you know. Can you go 
into a bit more detail about how offsets will be used to ensure 
the water banked by CAP in Lake Mead for mitigation will not 
further diminish reservoir levels?
    Mr. Buschatzke. Chairman McSally, so in our Intra Arizona 
Mitigation Plan probably about 400,000 acre-feet through 
dependency of the plan 2026 stored as Intentionally Created 
Surplus by Central Arizona Project to come out of the lake to 
help mitigate impacts on agriculture, tribes and cities.
    At the same time, we are facilitating the conservation of 
at least 400,000 acre-feet to replace it so that we at least 
have a net zero impact on the elevation of Lake Mead. That was 
a critical component from the state's perspective, and that 
perspective was also shared by many of the stakeholders in the 
process. So that was a key to finding a path forward in the 
State of Arizona Intra Arizona DCP plan.
    Senator McSally. Great. Thank you.
    I just want to wrap up. Senator Cortez Masto asked about 
what is going to happen if we don't get this done in an urgent 
manner, and I appreciate the answers because I think it is 
really important for everybody up here to understand this.
    I haven't been here very long, but I have been here long 
enough to know that sometimes we need some urgency created for 
people to move things in a timely manner and get them signed 
into law. So what I heard from the testimony is at the end of 
April there is a critical element there for if we get it all 
done and signed into law by the end of April then there are 
additional benefits. I mean, as soon as possible. This week we 
should get it done.
    But there are some immediate risks, if we don't get it done 
by the end of April then we are going to have missed 
opportunities, specifically related to Mexico. Is that what you 
said, Mr. Entsminger?
    Mr. Entsminger. That's correct, Madam Chair.
    Senator McSally. Okay.
    So to all of our colleagues who were here and those who 
will need their support to move this to the Senate and the 
House, this is just critically important to move forward for 40 
million people and all that is involved.
    You all did your hard work. It is now our time to do our 
hard work, and so I will finish my questions and comments with 
that sense of urgency for everybody. Let's please move this 
legislation. It should be non-controversial and let's just get 
it through both bodies and on the President's desk and signed 
into law.
    Senator Cortez Masto.
    Senator Cortez Masto. Thank you.
    I agree that this is an important agreement that has come 
together, and everyone has worked so hard. It is time for us to 
do our job and get it done, just for the reasons that we have 
heard today.
    Let me just make sure I can, and you touched on this a 
little bit, Commissioner Burman. The DCP, when it comes to 
hydropower, the DCP does mitigate potential impacts to 
hydropower operations in the Basins, correct, so it protects?
    Ms. Burman. Correct, along with all the resources of the 
Colorado River.
    Senator Cortez Masto. Okay, thank you. I just want to make 
sure that is the case.
    Is there anything else that we need to be aware of that we 
have not talked about today that either we need to be aware of 
or our colleagues, as we look to move this through Congress and 
get this done for the reasons that we have talked about? And 
let me just go down the panel here.
    Commissioner, anything else that we need to be aware of?
    Ms. Burman. I think, Ranking Member Cortez Masto, Chair 
McSally, you've been working with your state entities for a 
long time. So I think you recognize the risk.
    I think those who do not represent the seven Colorado River 
states, it's probably difficult to understand what a crisis we 
could be facing here. I hope that 40 million people resonates 
with people. I hope the fear of reaching dead pool resonates 
with people. I hope an agreement with Mexico and seven states 
where everyone is coming to the table to save more water 
resonates with people.
    And so, I would say, like how do we explain ourselves to 
the rest of your colleagues?
    Senator Cortez Masto. Thank you.
    Mr. Buschatzke.
    Mr. Buschatzke. So, Senator Cortez Masto, I would just add 
that for Arizona the certainty that the DCP provides is a key 
element. I've been involved in many agreements on water issues 
and that's something we always look for.
    I'll also say, referring to Pat Tyrrell's testimony, that 
we do not want litigation. We want to continue to collaborate.
    Senator Cortez Masto. Let me just say as the former 
Attorney General of Nevada, we do not want litigation.
    Mr. Buschatzke. Yes, that is the path forward, 
collaboration, not litigation.
    Senator Cortez Masto. Yes, I think that is the verse.
    Mr. Buschatzke. And that is one of the prime things that, 
hopefully, folks back here will understand as we've created 
almost a unique, but not totally unique, situation on the 
Colorado River where we've been able over the last 20 years to 
find collaborative paths forward.
    And if DCP starts to unravel people might go back to their 
corners and we would lose a huge benefit that we've had over 
the last couple of decades.
    Senator Cortez Masto. Thank you.
    Mr. Entsminger. I guess my addition would be, you know, 
please help us to continue being successful. There was a point 
in time when the Colorado River was referred to as the most 
litigated river in the world. And thanks to a lot of my 
colleagues that are here in the room with us today since the 
mid-'90s, I think we have been a model for how you can come 
together as a region, how not just Congress, but city councils 
and county commissions and tribal councils can all approve the 
same agreements and move forward. So I believe the Colorado 
River is a model for how to manage water across state lines, 
across international boundaries.
    This is the first time in my career that we've had to come 
to Congress to ask for your help, so please help us on our 
journey.
    Senator Cortez Masto. Thank you.
    Mr. Tyrrell.
    Mr. Tyrrell. Thank you.
    Chairman McSally, Ranking Member Cortez Masto, I think for 
the Upper Basin we have to remember that today is crucially 
important. The legislation is critical to get this program 
moving.
    But we in the Upper Basin don't stop working then. All it 
does for us is set up two processes for a demand management 
storage program, demand management program and the drought 
operations. Those procedures and those plans still need the 
involvement of our local stakeholders, our irrigators, our 
interest groups to develop.
    While the program becomes implemented immediately in the 
Lower Basin, we need to get to work so then when we can put 
those two plans together, they are ready. We won't stop working 
when this law passes, and I don't think anybody in the Lower 
Basin will either.
    Senator Cortez Masto. Thank you.
    Thank you for being here today. Thank you for all of the 
hard work; it is so appreciated. And good luck tomorrow in the 
House.
    Mr. Tyrrell. Thank you.
    Senator McSally. Wonderful.
    Before I close, I ask unanimous consent to place a 
statement of my colleague from Arizona, Senator Sinema, into 
the record.
    [No response.]
    Without objection, so ordered.
    [Statement from Senator Sinema follows:]
    [GRAPHIC] [TIFF OMITTED] T6260.088
    
    Senator McSally. Mr. Buschatzke, I think we want to have a 
hashtag trending today, hashtag collaboration, not litigation.
    [Laughter.]
    So everybody out there listening from all of our states, 
start trending on Twitter. I think that is the theme of this 
whole approach.
    I would like to thank all of you for sharing your time and 
expertise and all the hard work that went behind these historic 
agreements.
    For the information of the members, questions may be 
submitted for the record before the close of business on 
Thursday. The record will remain open for two weeks. We ask you 
please respond as promptly as possible and your responses will 
be made part of the record.
    With the thanks of the Subcommittee, this first hearing of 
the Water and Power Subcommittee is now adjourned.
    [Whereupon, at 3:29 p.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
</pre></body></html>
